                    Administration of the Earned Income
                     Tax Credit Program Has Improved,
                         but Challenges Continue

                                   August 2005

                       Reference Number: 2005-40-133




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   August 26, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



      FROM:                        Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Administration of the Earned Income Tax
                                   Credit Program Has Improved, but Challenges Continue
                                   (Audit # 200540012)


      This report presents the results of our review of the Earned Income Tax Credit (EITC)
      Program. The overall objective of this review was to assess the Internal Revenue
      Service’s (IRS) progress in improving the administration of the EITC Program since
      Fiscal Year 2002. This review was a follow-up audit to a report we issued in
      June 2003,1 in which we reported that long-term performance goals and measures were
      needed and fragmented management reduced the effectiveness of efforts to improve
      administration of the EITC Program.
      The EITC is a refundable credit available to taxpayers with certain amounts of earned
      income to offset the impact of Social Security taxes on low-income families and to
      encourage them to seek employment rather than welfare. Historically, the EITC
      Program has been vulnerable to high rates of noncompliance. The IRS has estimated
      between $8.5 and $9.9 billion (27 to 32 percent) of the $31.3 billion in EITC claims
      made by taxpayers for Tax Year 1999 should not have been paid. The IRS is in the
      process of performing a National Research Program that will provide more current data
      based on a sample of Tax Year 2001 income tax returns.
      Progress has been made in improving the administration of the EITC Program. The IRS
      has developed strategies and initiatives that should improve both EITC Program
      participation and compliance by taxpayers. The IRS has developed the EITC Reform
      Initiative to address backlogs of EITC Program examinations, minimize taxpayer burden
      during the audit process, improve communication with taxpayers, increase outreach

      1
       Opportunities Exist to Improve the Administration of the Earned Income Tax Credit (Reference
      Number 2003-40-139, dated June 2003).
                                             2

efforts, enhance compliance efforts, and pilot a certification process for higher risk
taxpayers.
In June 2003, we reported that long-term performance goals and measures had not
been established for the EITC Program. The IRS has since established long-term
performance goals and measures to evaluate its progress in improving the EITC
Program. The long-term measures are the percentage of Eligible Taxpayers Who File
for the EITC and the percentage of EITC Claims Paid in Error. Although the IRS
established the measures and goals, it had not updated these measures since the
measures were established.
The IRS appointed an executive to head the EITC Office, who reports directly to the
Commissioner, Wage and Investment Division. The executive still faces the difficulty of
holding accountable the functions that complete EITC Program work. Most of these
functions do not report to the EITC Office. For example, the Stakeholder Partnerships,
Education, and Communication function is responsible for education and outreach, and
the Field Assistance function is responsible for assistance with the preparation of tax
returns claiming the EITC and resolution of issues related to EITC notices. Both of
these functions report to the Customer Assistance, Relationships, and Education
function.
To address this issue, the EITC Office developed Service Level Agreements that are
negotiated with each function involved in the administration of the EITC Program. The
Service Level Agreements document and formalize the services being provided by the
operating and functional divisions, as well as the support the EITC Office will provide to
the respective divisions. We believe this mechanism will increase the accountability of
functions with EITC Program responsibility, but the EITC Office needs to ensure it
regularly evaluates the effectiveness of the Agreements.
The IRS continues to face other challenges in administering the EITC Program,
including the complexity of the tax law and the changing emphasis on the EITC
Program by both Congress and the Government Accountability Office. The EITC
Program eligibility rules are difficult and complicated for both taxpayers and the IRS. An
analysis performed by the National Taxpayer Advocate shows that many low-income
taxpayers struggle to determine EITC Program eligibility.
In addition, the level of emphasis on the EITC Program is shifting toward other areas of
tax law enforcement. Recently, both Congress and the Government Accountability
Office combined EITC Program concerns with the broader area of tax law enforcement.
With the changing emphasis on the EITC Program, the EITC Office should be prepared
to face the possibility that it may have to operate with fewer funds yet continue to
produce a valuable product.
We recommended the Director, EITC, closely analyze the results of the Service Level
Agreements. If the desired results are not being achieved, the Director should consider
elevating the level of management that signs the Agreement.
                                             3

Management’s Response: IRS management agreed with our recommendation. The
EITC Office will monitor and analyze the results set out in the Service Level Agreement
with the Wage and Investment Division Compliance function as it is implemented. As
part of this process, the EITC Office will evaluate the effectiveness of the Service Level
Agreement in facilitating the achievement of EITC Program objectives and will modify
the Service Level Agreement, including the level of management that signs the
Agreement, as necessary and appropriate. Management’s complete response to the
draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-7085.
                      Administration of the Earned Income Tax Credit Program
                             Has Improved, but Challenges Continue




                                                  Table of Contents


Background ............................................................................................... Page 1
Progress Has Been Made to Improve the Administration
of the Earned Income Tax Credit Program................................................ Page 5
Long-Term Performance Goals and Measures Were
Established................................................................................................ Page 7
Executive-Level Oversight of the Earned Income Tax
Credit Program Was Established .............................................................. Page 9
         Recommendation 1: .......................................................................Page 11

The Internal Revenue Service Continues to Face Challenges
in Improving the Earned Income Tax Credit Program ............................... Page 12
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 14
Appendix II – Major Contributors to This Report ....................................... Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Earned Income Tax Credit Program Rules ........................ Page 18
Appendix V – Earned Income Tax Credit Program Organization Chart..... Page 19
Appendix VI – Management’s Response to the Draft Report .................... Page 20
             Administration of the Earned Income Tax Credit Program
                    Has Improved, but Challenges Continue

                              The Earned Income Tax Credit (EITC) is a refundable credit
Background
                              available to taxpayers with certain amounts of earned
                              income. In 1975, Congress amended the Internal Revenue
                              Code1 to provide the EITC to offset the impact of Social
                              Security taxes on low-income families and to encourage
                              them to seek employment rather than welfare. For example,
                              a working family with an income of $25,000 is helped with
                              the EITC because they may be eligible to claim from $849
                              to $2,197, depending on the filing status and number of
                              eligible children in the family.
                              The Internal Revenue Service (IRS) is responsible for
                              administering the EITC Program. Since 1975, additional
                              legislation has been passed in an attempt to clarify the
                              qualifications for the EITC and make it easier for more
                              people to claim it. This has made administration of the
                              EITC Program more complex. The IRS has changed from
                              the use of a single line on the tax return for the EITC to a
                              53-page publication and schedule in Tax Year (TY) 2004
                              devoted to EITC Program instructions and computations.2
                              The number of taxpayers claiming the EITC grew
                              substantially from 1975 until 1995 but has since remained
                              relatively steady. The number of taxpayers claiming the
                              EITC increased from about 6.2 million in TY 1975 to
                              21.7 million in TY 2003. The total amount of the EITC
                              claimed increased from $1.2 billion to $38 billion. During
                              the same period, the average credit increased from about
                              $202 to $1,754. Figures 1 and 2 present the total number of
                              taxpayers claiming the EITC and the total dollars claimed.




                              1
                                Tax Reduction Act of 1975, Pub. L. No. 94-12, § 204, 89 Stat. 26,
                              30-32.
                              2
                                See Appendix IV for details on the EITC Program rules.
                                                                                              Page 1
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue


                                                Figure 1 :
                   Millions       Number of Taxpayers Claiming the EITC
                      25

                      20

                      15

                      10

                       5

                       0
                           1975 1980 1985 1990 1995 1997 1998 1999 2000 2001 2002 2003

                                                    Tax Year

                 Source: IRS Statistics of Income Bulletins and IRS processing reports.

                                                 Figure 2:
                   Billions           Total EITC Tax Dollars Claimed
                      40
                      35
                      30
                      25
                      20
                      15
                      10
                       5
                       0
                           1975   1980 1985 1990 1995 1997 1998 1999 2000   2001 2002 2003

                                                    Tax Year

                 Source: IRS Statistics of Income Bulletins and IRS processing reports.

                 Historically, the EITC Program has been vulnerable to high
                 rates of noncompliance. In February 2002, the IRS
                 estimated that, for TY 1999, between $8.5 and $9.9 billion
                 (27 to 32 percent) of the $31.3 billion in EITC claims made
                 by taxpayers should not have been paid.
                 To help improve administration of the EITC Program and
                 reduce noncompliance, Congress provided the IRS with a
                 special appropriation for 5 years totaling $716 million for
                 Fiscal Years (FY) 1998 through 2002. For FY 2003,
                 Congress provided an additional $146 million appropriation.
                 These separate appropriations allowed funds designated for
                 the EITC Program to be tracked separately from other
                 enforcement funding. However, in FY 2004, the funds
                                                                                    Page 2
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue

                 designated for the EITC Program were merged into the
                 general Tax Law Enforcement (TLE) account. The EITC
                 Program portion of the TLE budget was almost
                 $197 million in FY 2004.
                 The IRS participated in a joint Treasury-IRS task force to
                 study EITC Program noncompliance. In response to
                 recommendations made by the task force, the IRS has been
                 testing different concepts in its approach to noncompliance.
                 For example, the IRS is requiring a test group of higher risk
                 taxpayers to precertify their eligibility for the EITC. These
                 taxpayers must certify prior to receiving the EITC that they
                 lived with the children they claim for the EITC for the
                 required length of time. The IRS also created an Executive
                 Advisory Council, made up of IRS executives involved in
                 the administration of the EITC Program, to help provide
                 better oversight and coordination of the administration of
                 the Program.
                 The IRS is in the process of performing a National Research
                 Program that will provide more current data based on a
                 sample of 46,000 TY 2001 tax returns. The National
                 Research Program will provide compliance measures for
                 different types of taxes and different groups of taxpayers.
                 Taxpayers that claim the EITC will be part of this Program.
                 The President’s Administration has made elimination of
                 improper payments a major focus of the President’s
                 Management Agenda.3 Through the Improving Financial
                 Performance and Eliminating Improper Payments Program4
                 Initiatives, the President is holding Federal Government
                 agency managers accountable for strengthening financial
                 management controls so Federal agencies can better detect
                 and prevent improper payments and, thus, better ensure
                 taxpayer dollars are spent wisely and efficiently. In
                 addition, in an effort to eliminate improper payments, the




                 3
                   An improper payment occurs when Federal Government funds go to
                 the wrong recipient, the recipient receives an incorrect amount of funds,
                 or the recipient uses the funds improperly.
                 4
                   Improving the Accuracy and Integrity of Federal Payments
                 (Office of Management and Budget, dated January 25, 2005).
                                                                                  Page 3
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue

                 President signed the Improper Payments Information Act of
                 2002.5
                 Federal Government agencies implemented various
                 requirements of the Improper Payments Information Act of
                 2002 in FY 2004. The results are captured in a common
                 reporting format in each agency’s Performance and
                 Accountability Report. The first year established the
                 baseline on which short- and long-term program
                 improvement strategies and priorities will be based.
                 Seven individual Federal Government programs account for
                 approximately 95 percent of the total IRS improper
                 payments reported in FY 2004. The EITC Program makes
                 up 21 percent of the total improper payments.6

                                                     Figure 3:
                               $45.1 Billion Improper Payments by Major Program
                                                   (in billions)

                                                Unemployment                Earned Income Tax
                     Supplemental Security                                  Credit $9.7 (21%)
                                             Insurance $3.9 (9%)
                       Income $2.6 (6%)

                                    Old Age, Survivors,
                                       and Disability
                                    Insurance $1.7 (4%)
                         HUD Rental
                     Assistance $1.7 (4%)      Food Stamps $1.6                            Medicare $21.7 (47%)
                                                     (4%)

                                                          Other $2.2 (5%)


                 Source: Improving the Accuracy and Integrity of Federal Payments
                 (Office of Management and Budget, dated January 25, 2005).
                 HUD = Department of Housing and Urban Development.

                 This audit is a follow-up review to our report issued in
                 June 20037 and was conducted in the EITC Office of the
                 IRS Wage and Investment (W&I) Division in
                 Atlanta, Georgia. This audit was conducted in accordance
                 with Government Auditing Standards during the period
                 January 2005 through May 2005. Detailed information on

                 5
                   Pub. L. No. 107-300, 116 Stat. 2350 (2002).
                 6
                   This estimate is an FY 2004 projection based on the most recent
                 EITC Program error study from TY 1999.
                 7
                   Opportunities Exist to Improve the Administration of the Earned
                 Income Tax Credit (Reference Number 2003-40-139, dated June 2003).

                                                                                                    Page 4
                 Administration of the Earned Income Tax Credit Program
                        Has Improved, but Challenges Continue

                                  our audit objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  The IRS has developed strategies and initiatives that should
Progress Has Been Made to
                                  improve both EITC Program participation and compliance
Improve the Administration of
                                  by taxpayers. The IRS developed an EITC Strategy in the
the Earned Income Tax Credit
                                  FY 2003–2004 W&I Division Strategy and Program Plan.
Program
                                  This Strategy was to implement a more comprehensive
                                  approach to the delivery of EITC Program services.
                                  Subsequent to the development of the EITC Strategy, the
                                  IRS developed the EITC Reform Initiative. This Initiative
                                  addresses reducing backlogs of EITC Program
                                  examinations, minimizing taxpayer burden during the audit
                                  process, improving communication with taxpayers,
                                  increasing outreach efforts, enhancing compliance efforts,
                                  and piloting a certification process for higher risk taxpayers.
                                  Several projects and initiatives have been developed that
                                  address the five points of the EITC Reform Initiative.
                                  Audit process initiatives
                                  To improve the existing audit process, the IRS has
                                  developed:
                                     •   The Risk-Based Scoring and Selection system,
                                         which enhances the selection of returns and
                                         identifies the best treatment streams based upon the
                                         risk score.
                                     •   The Selection/Assignment and Decision Support
                                         Tool, which enhances the categorization and
                                         prioritization of returns within each treatment
                                         category and improves case building and case
                                         determination.
                                     •   The Corporate Inventory Management/Routing
                                         System, which routes the next best case to the next
                                         best examiner.
                                  Compliance initiatives
                                  To enhance compliance efforts, the IRS is continuing to
                                  refine tests and strategies. For example:


                                                                                          Page 5
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue

                    •   The IRS is testing new approaches to substantiate
                        EITC Program eligibility for claimants with the
                        Proof of Concept Tests for Qualifying Child, Filing
                        Status, and Income Verification. The objective of
                        these Tests is to minimize erroneous EITC payments
                        while maximizing participation of eligible EITC
                        claimants.
                    •   The IRS is implementing changes to amended return
                        processing to allow the capture and evaluation of
                        information from the Earned Income Credit
                        (Schedule EIC) during processing.
                 Outreach and education initiatives
                 The IRS also implemented initiatives to increase its
                 outreach efforts. For example:
                    •   The IRS delivers EITC Program education, outreach,
                        and assistance initiatives through both national and
                        local partners. The IRS has over 60 national
                        partners, including the National League of Cities; the
                        National Disability Institute; the United Way; the
                        Center on Budget, Policy, and Performance; the
                        United States Chamber of Commerce; and the
                        Department of Justice. Over 270 coalitions
                        nationwide are involved in local partnerships and
                        community-based activities.
                    •   The IRS conducts EITC Program awareness
                        campaigns that include newspaper, radio, television,
                        and mailings by utility companies, educational
                        institutions, and social service agencies. Figure 4
                        presents an example of EITC Program advertising
                        material.
                    •   The IRS provides free tax preparation through its
                        Volunteer Income Tax Assistance Program, which
                        assists low-income taxpayers with filing their returns
                        and claims each year.




                                                                        Page 6
                Administration of the Earned Income Tax Credit Program
                       Has Improved, but Challenges Continue

                                                           Figure 4:
                                          Example of EITC Program Advertising Material




                                 Source: IRS outreach advertising material.

                                 In 2003,8 we reported that long-term performance goals and
Long-Term Performance Goals
                                 measures had not been established for the EITC Program.
and Measures Were Established
                                 Both we and the Government Accountability Office (GAO)
                                 reported the need for the IRS to develop long-term goals and
                                 measures. In addition, during part of the FY 2004 budget
                                 process, the Office of Management and Budget (OMB)
                                 assessed the EITC Program using its Program Assessment
                                 Rating Tool.9 The OMB gave the EITC Program an
                                 ineffective rating because of the significant amount of
                                 EITC Program noncompliance. While the IRS had a strong
                                 planning process closely linked to its budget process, it had
                                 not set performance goals that allowed it to demonstrate
                                 results or developed long-term performance goals for the
                                 EITC Program.


                                 8
                                   Opportunities Exist to Improve the Administration of the Earned
                                 Income Tax Credit (Reference Number 2003-40-139, dated June 2003).
                                 9
                                   The Program Assessment Rating Tool was developed to assess the
                                 effectiveness of Federal Government programs and help improve
                                 management actions, budget requests, and legislative proposals directed
                                 at achieving results.
                                                                                                 Page 7
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue

                 The IRS established two long-term measures to evaluate its
                 progress and established goals for both measures. The
                 long-term measures were:
                    •   Percentage of EITC Claims Paid in Error. The
                        FY 2004 goal range for this measure was from 22 to
                        27 percent.
                    •   Percentage of Eligible Taxpayers Who File for the
                        EITC. The FY 2004 goal for this measure was
                        80 percent.
                 Although the IRS established measures and goals, it had not
                 updated either the percentage of EITC Claims Paid in Error
                 or the percentage of Eligible Taxpayers Who File for the
                 EITC since the measures were established.
                 Percentage of EITC Claims Paid in Error
                 The most current estimate of EITC Claims Paid in Error
                 continued to be between 27 and 32 percent. This figure was
                 based on a study of TY 1999 returns completed in Calendar
                 Year 2001. During our review, the IRS was in the process
                 of performing a National Research Program that would
                 provide more current data based on TY 2001 tax returns.
                 The results of the National Research Program were not
                 available at the time of this report.
                 The IRS has worked with the OMB and the Department of
                 the Treasury to develop a methodology for estimating
                 erroneous payments that is compliant with the Improper
                 Payments Information Act of 2002. There are two areas for
                 estimated error rates: the overall error rate and the
                 estimated error rate for a particular high-risk component of
                 the EITC Program, such as qualifying child. The OMB
                 allowed the IRS to provide an estimated error rate for the
                 qualifying child component because estimating the overall
                 EITC Program error rate requires a full compliance study,
                 such as the National Research Program, which takes several
                 years to complete. The OMB allowed the IRS to estimate
                 the error rate for the qualifying child component in the years
                 between the compliance studies that provide estimates for
                 the amount of EITC claimed.



                                                                        Page 8
                Administration of the Earned Income Tax Credit Program
                       Has Improved, but Challenges Continue

                                 Percentage of Eligible Taxpayers Who File for the EITC
                                 The most current estimate of eligible Taxpayers Who File
                                 for the EITC was 75 percent of the 17.2 million eligible
                                 taxpayers, based on a GAO study performed in
                                 December 2001 (see Figure 5).10 The IRS planned to
                                 employ the GAO methodology to estimate the percentage of
                                 eligible taxpayers who claim the EITC. However, the IRS
                                 informed us it was working to refine the methodology.

                                                             Figure 5:
                                          GAO Estimate of Taxpayers Eligible to Claim the EITC



                                      4.3 Million (25%)
                                      Eligible Taxpayers
                                      Did Not Claim
                                      the EITC


                                                                                   12.9 Million (75%)
                                                                                   Eligible Taxpayers
                                                                                   Claimed the EITC



                                 Source: Earned Income Tax Credit Eligibility and Participation
                                 (GAO-02-290R, dated December 2001).

                                 In June 2003, we reported that administration of the EITC
Executive-Level Oversight of
                                 Program was fragmented, which diffused the accountability
the Earned Income Tax Credit
                                 of the Program results. There was no executive appointed to
Program Was Established
                                 head EITC Program efforts to provide accountability and
                                 recognition to the value and importance of the Program to
                                 both its internal and external stakeholders.
                                 Federal Government management control standards require
                                 that agencies ensure appropriate authority, responsibility,
                                 and accountability are defined and delegated to accomplish
                                 the mission of the organization.11 The standards also require
                                 that an appropriate organizational structure be established to
                                 effectively carry out program responsibilities.



                                 10
                                    Earned Income Tax Credit Eligibility and Participation
                                 (GAO-02-290R, dated December 2001).
                                 11
                                    OMB Circular A-123, as revised June 21, 1995.
                                                                                                  Page 9
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue

                 The EITC Office has been in a state of fluctuation during
                 the past 4 years. In FY 2001, it reported directly to the
                 Commissioner, W&I Division. In July 2002, the EITC
                 Office was moved to report to the Director, Strategy and
                 Finance, W&I Division. In October 2003, it was placed
                 back directly under the Commissioner, W&I Division. At
                 that time, the IRS appointed an executive to direct the EITC
                 Office, which is responsible for managing the EITC
                 Program.
                 While we believe creating an executive-level position
                 benefits the coordination and oversight of the EITC Office
                 and related Program, that executive still faces the difficulty
                 of holding accountable the functions that complete EITC
                 Program work. Most of these functions do not report to the
                 EITC Office. For example, the Stakeholder Partnerships,
                 Education, and Communication function is responsible for
                 education and outreach. The Field Assistance function is
                 responsible for assistance with the preparation of tax returns
                 claiming the EITC and resolution of issues related to
                 EITC notices. Both of these functions report to the
                 Customer Assistance, Relationships, and Education
                 function. To address this, the EITC Office developed a
                 mechanism that tied compliance and other functions to the
                 W&I Division Strategic Plan.
                 A Service Level Management process was established to
                 provide a framework for documenting, monitoring, and
                 evaluating the levels of service provided to the EITC
                 Program by the various organizations within the IRS.12
                 Essential to this process are Service Level Agreements
                 (SLA), which are negotiated with each function involved in
                 the administration of the EITC Program. The SLAs
                 document and formalize the services being provided by the
                 operating and functional divisions, as well as the support the
                 EITC Office will provide to the respective divisions. The
                 EITC Office plans to establish with major functions SLAs
                 that tie their EITC Program responsibilities to the EITC
                 Strategic Plan.



                 12
                   See Appendix V for IRS offices and functions participating in the
                 EITC Program.
                                                                               Page 10
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue

                 At the time of our review, the EITC Office had finalized the
                 SLA with the W&I Division Compliance function.
                 However, this SLA was not signed until May 2005, which
                 prevented us from being able to evaluate the results of the
                 SLA process.
                 We believe the SLA process will increase the accountability
                 of functions with EITC Program responsibility, but the
                 EITC Office needs to ensure it regularly evaluates the
                 effectiveness of the SLAs. If the EITC Office finds the
                 SLAs are not being adhered to, it may be necessary to
                 elevate the level of management that signs the SLAs,
                 perhaps up to and including the Commissioner, W&I
                 Division. This could allow more specific consequences for
                 nonperformance of agreed upon items and could allow tying
                 the deliverance of the Program to the executive’s annual
                 performance goals.

                 Recommendation

                 To ensure the SLA process is working as intended and the
                 EITC Program is successful, the Director, EITC, should:
                 1. Closely analyze the results of the SLA currently in
                    operation to ensure all functions are working within the
                    agreements reached. If the Director, EITC, determines
                    the desired results are not being achieved, the Director
                    should consider elevating the level of management that
                    signs the Agreement.
                 Management’s Response: IRS management agreed with
                 this recommendation. The EITC Office will monitor and
                 analyze the results of the SLA with the W&I Division
                 Compliance function as it is implemented. As a part of this
                 process, the EITC Office will evaluate the effectiveness of
                 the SLA in facilitating the achievement of EITC Program
                 objectives and will modify the SLA, including the level of
                 management that signs the Agreement, as necessary and
                 appropriate.




                                                                     Page 11
                 Administration of the Earned Income Tax Credit Program
                        Has Improved, but Challenges Continue

                                  The IRS faces many challenges in administering the EITC
The Internal Revenue Service
                                  Program, including the complexity of the tax law and the
Continues to Face Challenges in
                                  changing emphasis on the EITC Program by both Congress
Improving the Earned Income
                                  and the GAO.
Tax Credit Program
                                  Tax law complexity
                                  The EITC Program eligibility rules are difficult and
                                  complicated for both taxpayers and the IRS. The
                                  complexity causes taxpayers and IRS employees to make
                                  errors while attempting to interpret and apply the tax laws to
                                  their individual situations. An analysis performed by the
                                  National Taxpayer Advocate (NTA) shows that many
                                  low-income taxpayers struggle to determine EITC Program
                                  eligibility.13 Some taxpayers lack understanding of the
                                  eligibility issues related to family status, such as the
                                  dependency exemption and head of household filing status.
                                  The IRS has several initiatives underway to educate
                                  taxpayers and their representatives about EITC Program
                                  eligibility, and the NTA is attempting to address many of
                                  the issues through administrative and legislative
                                  recommendations. The Working Families Tax Relief Act of
                                  200414 made changes to family status definitions that may
                                  reduce the complexity of the determinations.
                                  Changing emphasis on the EITC Program
                                  The level of emphasis on the EITC Program is shifting
                                  toward other areas of tax law enforcement. Recently, both
                                  the GAO and Congress combined EITC Program concerns
                                  with the broader area of tax law enforcement.
                                  In 2001, the GAO named EITC Noncompliance as a
                                  high-risk area because of the particularly high incidence of
                                  fraud and other forms of noncompliance. The GAO 2005
                                  high-risk status report15 combined the EITC Noncompliance
                                  and the Collection of Unpaid Taxes high-risk areas into a
                                  single area – Enforcement of Tax Laws. The GAO believes
                                  the focus of concern on tax law enforcement is not confined
                                  to any one segment of the taxpaying population or any
                                  single tax provision.

                                  13
                                     NTA 2004 Annual Report to Congress.
                                  14
                                     Pub. L. No. 108-311, 118 Stat. 1166 (2004).
                                  15
                                     High Risk Series: An Update (GAO-05-207, dated January 2005).
                                                                                             Page 12
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue

                 Congress dedicated a specific appropriation for EITC
                 Program compliance initiatives (both to curb noncompliance
                 and encourage participation) in FYs 1998 through 2003.
                 However, in the FY 2004 budget, Congress returned to
                 appropriating a single amount for the IRS to allocate among
                 its various tax law enforcement efforts.
                 Merging the EITC Program funds into the TLE account
                 allows the Commissioner, W&I Division, to maneuver
                 dollars between programs. However, combining the funds
                 made it more difficult for the EITC Office to track its funds.
                 After the EITC Program funds were merged into the TLE
                 account, the EITC Office had no way to monitor its fund
                 separately, and special reports were developed by the Chief
                 Financial Officer to allow the EITC Office to monitor funds
                 more easily. The EITC Office relies on these reports to
                 show the money budgeted and spent by the individual
                 functions.
                 With both the GAO and Congress changing their emphasis
                 on the EITC Program, the EITC Office should be prepared
                 to face the possibility that it may have to operate with fewer
                 funds yet still continue to produce a valuable product.
                 Fewer funds could affect the future of the EITC Program
                 because the result would likely be fewer outreach and
                 education activities and fewer compliance initiatives. Since
                 the Commissioner, W&I Division, has the flexibility to
                 maneuver dollars between programs, funds may be
                 redirected from the EITC Program to other TLE programs.




                                                                       Page 13
                    Administration of the Earned Income Tax Credit Program
                           Has Improved, but Challenges Continue

                                                                                                Appendix I


                         Detailed Objective, Scope, and Methodology

The objective of this review was to assess the Internal Revenue Service’s (IRS) progress in
improving the administration of the Earned Income Tax Credit (EITC) Program since
Fiscal Year (FY) 2002. This was a follow-up audit to a report we issued in June 2003,1 in which
we reported that long-term performance goals and measures were needed and fragmented
management reduced the effectiveness of efforts to improve administration of the EITC
Program. We evaluated the IRS’ progress in administering the EITC Program between
October 1, 2002, and September 30, 2004.
Our testing was limited to reviewing IRS management reports in FYs 2003 and 2004 and
discussing the EITC Program with appropriate officials. We did not conduct testing to verify the
accuracy of the reports, nor did we do any tests to validate the data reported by the IRS. To
accomplish our objective, we:
I.      Determined the organizational structure, status, goals, and strategies for the
        EITC Program as of September 30, 2002. We reviewed our June 2003 audit report and
        the IRS’ FY 2002 business plans and reports to determine the status of the EITC Program
        at the end of FY 2002.
II.     Determined the changes and progress the IRS has made in the administration of the
        EITC Program.
        A. Identified the projects, programs, and initiatives the IRS implemented during
           FYs 2003 and 2004 in an effort to increase the number of eligible taxpayers who
           claim the EITC (EITC Program participation rate). We determined the impact of the
           Proof of Concept Tests by researching the IRS’ FYs 2003 and 2004 strategic plans
           and meeting with appropriate IRS officials in the EITC Office.
        B. Identified Government Accountability Office concerns with the IRS’ ability or efforts
           to improve participation in the EITC Program and reduce and prevent EITC
           overclaims. We determined which corrective actions the IRS indicated would be
           completed prior to the end of FY 2004.
        C. Evaluated the IRS’ activities during FYs 2003 and 2004 to determine its progress in
           increasing participation in the EITC Program and reducing EITC overclaims by
           comparing FYs’ 2003 and 2004 performance results to the results as of the end of
           FY 2002.



1
 Opportunities Exist to Improve the Administration of the Earned Income Tax Credit (Reference
Number 2003-40-139, dated June 2003).
                                                                                                    Page 14
                 Administration of the Earned Income Tax Credit Program
                        Has Improved, but Challenges Continue

III.   Evaluated the IRS’ ability to significantly improve administration of the EITC Program
       as a result of changes made in the EITC Office and to the Program itself. We determined
       whether the Program changes addressed the recommendations made in our June 2003
       report.
       A. Determined how effectively the EITC Program funds were being tracked after they
          were merged with the Tax Law Enforcement account.
       B. Determined whether the structure of the EITC Office allows adequate oversight of the
          employees working EITC Program cases by reviewing the concept of the Service
          Level Agreements.
       C. Determined how the EITC Office keeps abreast of legislative changes and how it
          incorporates legislative changes into planning.
       D. Determined what the IRS did to prepare for or address changes in the economy or
          taxpayer base that could affect EITC Program participation. We interviewed EITC
          Office personnel to determine what they use to forecast the EITC Program population
          and how this is incorporated into the strategic planning process.
       E. Determined how the EITC Office communicates with Congress and outside
          stakeholders to gather stakeholder opinions.
       F. Reviewed the Wage and Investment Division Strategic Plan to determine whether the
          IRS had established long-term goals and related measures for the EITC Office that
          reflect anticipated outcomes. We determined whether the IRS had established a
          consistent method to measure progress toward its long-term goals and whether the
          method includes an assessment of the frequency with which the measures are
          computed.




                                                                                       Page 15
                 Administration of the Earned Income Tax Credit Program
                        Has Improved, but Challenges Continue

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Deann L. Baiza, Audit Manager
Sharla J. Robinson, Acting Audit Manager
Kathleen A. Hughes, Senior Auditor
Tracy K. Harper, Auditor
Sandra L. Hinton, Auditor




                                                                                         Page 16
                Administration of the Earned Income Tax Credit Program
                       Has Improved, but Challenges Continue

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Earned Income Tax Credit SE:W:EITC
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Director, Communications and Liaison TA:CCL
       Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 17
                     Administration of the Earned Income Tax Credit Program
                            Has Improved, but Challenges Continue

                                                                                                 Appendix IV


                            Earned Income Tax Credit Program Rules

Below is a general description of the qualifications taxpayers must meet to be eligible for the
Earned Income Tax Credit (EITC). A detailed description of these rules can be found in Internal
Revenue Service publication Earned Income Credit (EIC) (Publication 596).
Everyone must meet all of the following rules:
    •   Your Adjusted Gross Income1 and earned income must be less than:
           o $34,458 ($35,458 for married filing jointly) if you have more than 1 qualifying
               child.
           o $30,338 ($31,338 for married filing jointly) if you have 1 qualifying child.
           o $11,490 ($12,490 for married filing jointly) if you do not have a qualifying child.
    •   You must have a valid Social Security Number.
    •   Your filing status cannot be “Married filing separately.”
    •   You must be a United States citizen or resident alien all year.
    •   You cannot file Foreign Earned Income (Form 2555) or Foreign Earned Income
        Exclusion (Form 2555-EZ).
    •   Your investment income must be $2,650 or less.
    •   You must have earned income.
Rules to meet if you have a qualifying child (must meet all):
    •   Your child must meet the relationship, age, and residency tests.
    •   Your qualifying child cannot be used by more than one person to claim the EITC.
    •   You cannot be a qualifying child of another person.
Rules to meet if you do not have a qualifying child (must meet all):
    •   You must be at least age 25 but under age 65.
    •   You cannot be the dependent of another person.
    •   You cannot be a qualifying child of another person.
    •   You must have lived in the United States more than one-half of the year.




1
 Adjusted Gross Income is a taxpayer’s gross income for the year adjusted for certain exclusions from income
provided for in the Internal Revenue Code.



                                                                                                         Page 18
                            Administration of the Earned Income Tax Credit Program
                                   Has Improved, but Challenges Continue

                                                                                                   Appendix V


                         Earned Income Tax Credit Program Organization Chart

        The shaded functions in the organization chart below are responsible for various aspects of the
        Earned Income Tax Credit Program.




Source: Developed from Internal Revenue Service information. EEO = Equal Employment Opportunity.



                                                                                                       Page 19
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue

                                                         Appendix VI


   Management’s Response to the Draft Report




                                                              Page 20
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue




                                                         Page 21
Administration of the Earned Income Tax Credit Program
       Has Improved, but Challenges Continue




                                                         Page 22
